PROOF OF SERVICE

Cheryl J. Sturm, Esq. certifies that on 2ith day of September, 2020, she served a copy of
the Petition for Certiorari and Motion for Leave to Proceed In Forma Pauperis and to be served
on opposing counsel by United States Mail, first Class postage pre-paid and addressed as
follows:

Ronald Eisenberg

Chief Deputy Attorney General
Office of the Attorney General
1600 Arch Street

Suite 300

Philadelphia, PA 19103

/s/ Cheryl J, Sturm, Esq.
Chery! J. Sturm

387 Ring Road
Chadds Ford, PA 19317

 
